         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Early Warning Report




       Making Better Use of
       Superfund Special Accounts
       in Region 8
       Report No. 08-P-0102

       March 17, 2008
Report Contributors: 	   Carolyn Copper
                         Tina Lovingood
                         Barry Parker
                         Katherine Beam
                         Angela Bennett
                         Jee Kim
                       U.S. Environmental Protection Agency                                                08-P-0102 

                                                                                                       March 17, 2008

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review                 Making Better Use of Superfund
In February 2006, the Office of        Special Accounts in Region 8
Inspector General recommended
that the U.S. Environmental             What We Found
Protection Agency (EPA) timely
review Superfund special accounts      Region 8 can reclassify, or transfer to the Trust Fund, approximately
to ensure funds are used consistent    $8 million from the special accounts for the Portland Cement site in Utah.
with its guidance. We followed up      Construction was complete at the site in September 2006. However, in 2005,
on EPA’s progress in implementing      the Region identified a portion of the Portland Cement special accounts for
this recommendation by evaluating      reclassification. The Region said that there will be minimal but
EPA’s use of special accounts that     undetermined future costs for site maintenance at Portland Cement. These
had high available balances or were    costs will be paid from the $8.5 million balance. Region 8 can also
at least 10 years old.                 reclassify, or transfer to the Trust Fund, approximately $16,000 from four
                                       other special accounts.
Background
                                       Region 8 had not timely reviewed, reclassified, or transferred any of these
Section 122(b)(3) of the               funds because it was a low priority. The Region told us it planned to close or
Comprehensive Environmental            initiate closing the four other special accounts for approximately $16,000 by
Response, Compensation, and            October 2007, but the accounts have not been closed.
Liability Act (CERCLA)
authorizes EPA to retain and use       After receiving our draft report in February 2008, Region 8 reclassified
funds received in settlements to       approximately $3 million from the Portland Cement special account. The
address CERCLA response actions        Region said these funds will be used for cleanup needs at the Libby
contemplated in the settlement         Superfund site in Montana and for Superfund records center site-specific
agreements. EPA retains these          work. The Region documented its plans to reclassify some portion of the
funds in site-specific accounts,       remaining special account balance (about $5 million) after it determines the
called “special accounts,” which       amount of funds it will reimburse the State of Utah.
are sub accounts within the EPA
Hazardous Substance Superfund          Had Region 8 more timely reclassified these special account funds, cleanup
Trust Fund (Trust Fund).               needs at the Libby Superfund site or at other sites that receive Trust Fund
                                       appropriations may have been met sooner. Once the Region reclassifies the
                                       special account funds reviewed here, more funds will be available to support
For further information,               other Superfund priorities.
contact our Office of Congressional
and Public Liaison at (202) 566-2391
                                        What We Recommend
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/          We recommend that the Region 8 Administrator reclassify, or transfer to the
20080317-08-P-0102.pdf                 Trust Fund, $8 million of the Portland Cement special accounts and
                                       approximately $16,000 from the four other interest-only special accounts.
                                       Region 8 agreed with the recommendations, reclassified $3 million from the
                                       Portland Cement account, and said all actions to respond to the open
                                       recommendations will be completed by June 15, 2008.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                         March 17, 2008

MEMORANDUM

SUBJECT:	             Making Better Use of Superfund Special Accounts in Region 8
                      Report No. 08-P-0102


FROM:	                Wade T. Najjum
                      Assistant Inspector General
                      Office of Program Evaluation

TO:                   Robbie Roberts
                      Region Administrator
                      EPA Region 8


This report is to inform you of findings by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA) that require immediate action regarding EPA
Region 8’s management of several Superfund special accounts.

The OIG is conducting a review of (1) EPA Regions’ utilization of special account funds for a
sample of accounts with high available balances, and (2) EPA Regions’ utilization of special
account funds for accounts that are at least 10 years old. We are conducting our review in
accordance with generally accepted government auditing standards. Section 122(b)(3) of the
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
authorizes EPA to retain and use funds received in settlements to address CERCLA response
actions contemplated in the settlement agreements. EPA retains these funds in site-specific
accounts, called “special accounts,” which are sub accounts within the EPA Hazardous
Substance Superfund Trust Fund (Trust Fund).

During our review of selected Region 8 accounts with high available balances and accounts that
are at least 10 years old, we found the following for the Portland Cement Superfund site, in Salt
Lake City, Utah, and for four interest-only Superfund special accounts.

   Portland Cement: Region 8 could reclassify or transfer to the Trust Fund approximately
   $8 million from the Portland Cement’s 089C and 0838 Superfund special accounts, after
   EPA reimburses the State of Utah for cleanup costs. This is based on information provided
   by the Region, and in the Region’s records, showing the Region has an amount in the special



                                                1

    accounts in excess of future anticipated needs. Reclassifying or transferring these funds is
    consistent with EPA guidance on managing Superfund special accounts.1

         As of December 13, 2007, the net balance in Portland Cement’s special accounts was
         approximately $8.5 million, including approximately $4.3 million in interest.
         Construction was complete at the site in September 2006, and in February 2007, EPA
         Region 8 staff drafted a reclassification memo for the site’s special accounts. It stated
         that “EPA Region VIII is satisfied that all activities required for the Portland Cement
         Sites have been performed.” The memo also stated that the Region was determining the
         minimal anticipated future operations and maintenance expenses. This was so that
         remaining special account funds could be used to reimburse EPA’s past costs
         (reclassification). Region 8 staff stated that the memo was not finalized due to the project
         manager’s workload, complications on determining the amounts for reclassification
         and/or transfer to the Trust Fund, and a budget personnel change. For these reasons the
         memo was not a high priority until January 2008, when the Region finalized a
         reclassification memo.

         In its February 19, 2008, response to our draft report, Region 8 told us that approximately
         $500,000 of Portland Cement’s special account will be needed for future site work and
         maintenance. Some undetermined amount will be needed to refund the State of Utah’s
         portion of cleanup costs.2 Based on our review of regional records and information,
         approximately $8 million can be reclassified or transferred to the Trust Fund, calculated
         as follows:

          Table 1: Portland Cement Special Account Funds Available for Better Use
          Account Balance (12/13/07 )                                                                     $8,523,014
                   Less: Planned Future Site Work, 5-year Reviews, Operations                              (-)548,889
                   and Maintenance, and Land Use Controls
          Total Available for Reclassification or Transfer                                                $7,974,125
                                                     3
          Source: OIG analysis of EPA ORBIT data and EPA staff information, rounded to the nearest dollar



         Interest-Only Special Accounts in Region 8: Reclassification or transfer to the Trust
         Fund of approximately $16,000 can occur from four interest-only special accounts. This
         is because the Region has either used all of the principal funds in the special accounts or
         will be spending all of the funds in the special accounts to the extent possible. The
         Region planned to initiate closing these special accounts by October 2007. However, the
         accounts were not closed because they were not a priority. According to regional data,
         the balances in the four interest-only accounts that can be reclassified or transferred to the
         Trust Fund are as follows:

1
  “Special Accounts: Guidance on Key Decision Points in Using Special Account Funds,” Office of Solid Waste and 

Emergency Response # 9275.1-03. 

2
  Region 8 requested that the OIG withhold the potential estimates of funds to be returned to the State of Utah as that 

amount has not yet been finalized. 

3
  EPA’s ORBIT (Office of the Chief Financial Officer Reporting and Business Intelligence Tool) is a Web-based

reporting and data analysis tool that accesses financial, administrative, and operational information.



                                                           2

       Table 2: Region 8 Interest-Only Special Accounts
                                                     Account                      Balance
                  Special Account Name               Number                       (2/20/08)
        Lowry Landfill                                         0808                 $6,048
        (Arapahoe County, Colorado)
        Central City/Clear Creek                               0813                 $7,912
        (Idaho Springs, Colorado)
        Petrochem Recycling Corp/Ekotek Plant                  08F3                 $2,023
        (Salt Lake City, Utah)
        California Gulch                                       0829                   $101
        (Leadville, Colorado)
        Total                                                                      $16,084
        Source: OIG analysis of EPA’s ORBIT data, rounded to the nearest dollar



Recommendations

We recommend that the Region 8 Administrator:

   1)	 Reclassify $8 million of the Portland Cement special accounts to fund other priority
       response activities or transfer these funds to the Trust Fund, as appropriate.

   2)	 Reclassify $16,084 from the Lowry Landfill, Central City/Clear Creek, Petrochem
       Recycling Corp/Ekotek Plant, and California Gulch accounts to fund other priority
       response activities or transfer these funds to the Trust Fund, as appropriate.

Agency Response and OIG Evaluation

On the same day Region 8 provided its response to our draft report (February 19, 2008),
Region 8 reclassified approximately $3 million from the Portland Cement accounts to primarily
fund work at the Libby Superfund site in Region 8. A relatively small portion of the reclassified
funds were also to be used to fund the Superfund records center site-specific work. Region 8
also indicated in its response that the balance remaining after it reimbursed the State of Utah
could be reclassified. Regional staff stated that the amount that the State would be reimbursed
might be known in about 30 days. OIG recognizes the partial reclassification and a timely
reclassification of the remaining balance as meeting the intent of recommendation 1.
Nonetheless, the Libby site has had publicly disclosed needs for additional funding for a number
of years. Region 8 has been aware it could reclassify some portion of funds since 2005, and the
Libby funding needs have been known for at least that long. Region 8’s timely reclassification
of the remaining Portland Cement special account balance after reimbursement to Utah
potentially provides opportunities to address other priority Superfund sites. Recommendation 1
will remain open until the reclassification is complete and amounts reclassified are confirmed.




                                                     3

EPA agreed with recommendation 2. This recommendation will remain open until the
reclassifications, or transfers, are complete and the reclassified or transferred amounts are
confirmed.

Region 8 stated that corrective actions for both recommendations would be completed by
June 15, 2008. We are closing the report in the OIG management tracking system. Please notify
the OIG when the reclassifications and transfers are completed and provide documentation
supporting the amount reclassified or transferred

We will issue a final report that will discuss other OIG findings on EPA’s management of
Superfund special accounts. That report will include the Region’s final response to the issues
identified in this report. If there are questions, I can be reached at (202) 566-0827 or
najjum.wade@epa.gov, or you can contact Carolyn Copper at (202) 566-0829 or
copper.carolyn@epa.gov.




                                                 4

                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                   Planned
     Rec.    Page                                                                                                 Completion   Claimed    Agreed To
     No.      No.                           Subject                           Status1       Action Official          Date      Amount      Amount

      1        3	    Reclassify $8 million of the Portland Cement               O        Region 8 Administrator                $7,974.1    $7,974.1
                     special accounts to fund other priority response
                     activities or transfer these funds to the Trust Fund,
                     as appropriate.

      2        3	    Reclassify $16,084 from the Lowry Landfill,                O        Region 8 Administrator                 $16.1       $16.1
                     Central City/Clear Creek, Petrochem Recycling
                     Corp/Ekotek Plant, and California Gulch accounts
                     to fund other priority response activities or transfer
                     these funds to the Trust Fund, as appropriate.




1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress




                                                                                    5

                                                                              Appendix A

                                    Distribution

Regional Administrator, Region 8
Assistant Administrator, Office of Enforcement and Compliance Assurance
Assistant Administrator, Office of Solid Waste and Emergency Response
Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Director, Office of Superfund Remediation and Technology Innovation
Acting Director, Office of Site Remediation Enforcement
Director, Office of Administration and Policy
Director, Financial Management Program, Region 8
Director, Superfund Remedial Response Program, Region 8
Director, Superfund Program Support Program, Region 8
Audit Followup Coordinator, Region 8
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Unit Leaders, Superfund Remedial Unit, Region 8
Director, Legal Enforcement Program, Region 8
Director, RCRA/CERCLA Technical Enforcement Program, Region 8
Team Leader, RCRA/CERCLA Technical Enforcement Program, Region 8
Agency Followup Official
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                             6

